  DEPARTMENT OF HOMELAND SECURITY

        Office of Inspector General



     ICE's Compliance With Detention Limits
     for Aliens With a Final Order of Removal
              From the United States




OIG-07-28                            February 2007
Contents




     Executive Summary ........................................................................................................................ 1
     Background ..................................................................................................................................... 3
     Results of Review ......................................................................................................................... 10
     Compliance With Regulations Requires More Attention and Diligence...................................... 10
          Majority of Detainees Are Removed Within 90 Days But More Oversight Is Needed ......... 11
          Inconsistent Use of Available Guidance and Resources by Field Offices Contributes to
          Compliance Issues .................................................................................................................. 14
     Resource Allocation and Management Constrains the POCR Process ........................................ 19
          POCR Compliance Oversight Is Limited ............................................................................... 20
          TDU Support for the POCR Process Is Not Adequate ........................................................... 25
     Making Removals a Priority Requires Additional Resources, Support, and Oversight ............... 27
          Removals of National Interest Cases and Dangerous Aliens Should Be Prioritized.............. 28
          Likelihood of Removal Standard Needs to be Documented and Transparent........................ 31
          Oversight of Aliens Held Longer Than 180 Days Is Insufficient........................................... 33
     Management Comments and OIG Analysis ................................................................................. 37



Appendices
Appendix A: Purpose, Scope, and Methodology................................................................................ 44
Appendix B: Management Response to Draft Report ........................................................................ 46
Appendix C: Supplementary Management Response......................................................................... 50
Appendix D: POCR Timeline............................................................................................................. 52
Appendix E: Detentions Past 360 Days, By Region Of Origin .......................................................... 53
Appendix F: Special Circumstances Cases......................................................................................... 54
Appendix G: Substantive Deficiencies in POCR Worksheets............................................................ 56
Appendix H: Procedural Challenges and Best Practices .................................................................... 57
Appendix I: Major Contributors to the Report ................................................................................... 60
Appendix J: Report Distribution......................................................................................................... 61



              ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States
Abbreviations
  DACS                     Deportable Alien Control System
  DHS                      Department of Homeland Security
  DRO                      Headquarters Office of Detention and Removal Operations
  ENFORCE                  Enforcement Case Tracking System
  GAO                      Government Accountability Office
  HQCDU                    Headquarters Custody Determination Unit
  ICE                      Immigration and Customs Enforcement
  INS                      Immigration and Naturalization Service
  POCR                     Post-Order Custody Review
  OIG                      Office of Inspector General
  TDU                      Travel Document Unit




       ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States
OIG
Department of Homeland Security
Office of Inspector General


Executive Summary
                       In June 2001, the U.S. Supreme Court ruled that an alien with a final order of
                       removal generally should not be detained longer than six months. To justify
                       an alien’s continued detention, current laws, regulations, policies and practices
                       require the federal government to either establish that it can obtain a passport
                       or other travel document for the alien in the “reasonably foreseeable future,”
                       or certify that the alien meets stringent criteria as a danger to society or to the
                       national interest. Immigration and Customs Enforcement (ICE), within the
                       Department of Homeland Security (DHS), is responsible for ensuring
                       compliance with the Court’s ruling and final order case management.

                       We reviewed ICE’s compliance with detention limits for aliens who were
                       under a final order of removal from the United States, including the reasons
                       for exceptions or noncompliance. ICE has introduced quality assurance and
                       tracking measures for case review; however, outdated databases and current
                       staffing resources limit the effectiveness of its oversight capabilities.
                       Although approximately 80% of aliens with a final order are removed or
                       released within 90 days of an order, among the Post-Order Custody Review
                       (POCR) files we reviewed, required custody decisions were not made in over
                       6% of cases, and were not timely in over 19% of cases. Moreover, some
                       aliens have been suspended from the review process without adequately
                       documented evidence that the alien is failing to comply with efforts to secure
                       removal. In addition, cases are not prioritized to ensure that aliens who are
                       dangerous or whose departure is in the national interest are removed, or that
                       their release within the United States is adequately supervised. Finally, ICE
                       has not provided sufficient guidance on applying the Supreme Court’s
                       “reasonably foreseeable future” standard, and does not systematically track
                       removal rates — information that is necessary for negotiating returns and for
                       determining whether detention space is used effectively.

                       The weaknesses and potential vulnerabilities in the POCR process cannot be
                       easily addressed with ICE’s current oversight efforts, and ICE is not well
                       positioned to oversee the growing detention caseload that will be generated by
                       DHS’ planned enhancements to secure the border.




      ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                               Page 1
              To address these challenges we are recommending: holding ICE field offices
              more accountable for the quality and timeliness of the POCR process while
              also increasing ICE headquarters assistance in obtaining travel documents;
              prioritizing the removal of aliens who represent a serious threat to society or
              the public interest; developing an objective and transparent methodology for
              evaluating the likelihood of removal for all cases; and intensifying the
              monitoring of long-term detainees. ICE concurred with three of our five
              recommendations, which we consider resolved but open pending our receipt
              of ICE’s proposed actions.




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                             Page 2
Background
                          The June 2001 U.S. Supreme Court decision reversed the former Immigration
                          and Naturalization Service’s (INS) practice of indefinitely detaining aliens
                          who were difficult to remove but represented a threat to the community or
                          would likely abscond if released. Aliens affected by the decision include both
                          legal and illegal entrants – those who entered or remained in the United States
                          illegally, and those whose legal permanent residency or other legal status was
                          revoked because of a criminal conviction. The Supreme Court held that
                          indefinite detention of these aliens raised “serious constitutional concerns,” as
                          “[f]reedom from imprisonment – from government custody, detention, or
                          other forms of restraint – lies at the heart of the liberty” that the constitution
                          protects.1 In 2005, the Supreme Court extended the same protection to
                          inadmissible aliens, namely aliens apprehended at a port of entry.2

                          The INS Office of Detention and Removals (DRO), which was transferred
                          into ICE in March 2003 with the creation of DHS, drafted regulations and
                          guidance describing the Supreme Court’s decision as explaining that “the
                          period of time which can be considered as ‘the reasonably foreseeable future,’
                          becomes increasingly shorter as the length of time the alien has been held in
                          post-order INS detention increases. In other words, the longer an alien
                          remains in INS custody after being ordered removed, the higher the burden on
                          the government to establish that the alien’s removal is going to occur in the
                          reasonably foreseeable future.”3

                          To justify prolonged detention, current laws, regulations, policies and
                          practices require the federal government to either establish that removal can
                          be secured in the reasonably foreseeable future, or prove that a detainee meets
                          certain stringent criteria outlined below.

                          Overview of Statutory and Regulatory Requirements

                          Regulations provide for an initial removal period of 90 days, after which the
                          detainee receives a post-order custody review, or POCR. The 90-day POCR
                          essentially considers three criteria:



1
  Zadvydas v. Davis 533 U.S. 678, 682, 690 (2001).
2
  Clark v. Martinez 543 U.S. 371 (2005).
3
  INS Detention and Removal Manual, Chapter 17.

           ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                        Page 3
                                     1) Flight Risk – Whether the alien is likely to abscond if released,
                                     based on the alien’s cooperation with the removal process, and ties to
                                     the community, such as family and employment prospects.

                                     2) Danger to Community – Whether the alien poses a danger to the
                                     general public, based on criminal history, recidivism, and disciplinary
                                     record while in prison or ICE custody.

                                     3) Likelihood of Obtaining Travel Documents – Whether travel
                                     documents appear forthcoming or have already been obtained, and
                                     removal is therefore imminent.

                            If the alien is not released or removed, and is cooperating with the removal
                            process and has not obtained a stay of removal from the court, the second
                            review in the POCR process is conducted as soon as possible after 180 days
                            have elapsed from the final order of removal. The 180-day review considers
                            two criteria:

                                     1) Significant Likelihood of Removal in the Reasonably Foreseeable
                                     Future – Whether it is reasonable to believe that travel documents can
                                     be obtained, given the federal government’s efforts, the receiving
                                     country’s willingness to accept the alien, and other factors for
                                     consideration. The regulations require the Headquarters Custody
                                     Determination Unit (HQCDU) to “consider all the facts of the case
                                     including, but not limited to, the history of the alien’s efforts to
                                     comply with the order of removal, the history of the Service’s efforts
                                     to remove aliens to the country in question or to third countries,
                                     including the ongoing nature of the Service’s efforts to remove this
                                     alien and the alien’s assistance with those efforts, the reasonably
                                     foreseeable results of those efforts, and the views of the Department of
                                     State regarding the prospects for removal of aliens to the country or
                                     countries in question. Where the Service is continuing its efforts to
                                     remove the alien, there is no presumptive period of time within which
                                     the alien’s removal must be accomplished, but the prospects for the
                                     timeliness of removal must be reasonable under the circumstances.”4

                                     2) Special Circumstances – Regulations outline four categories
                                     permitting detention beyond 180 days even if it is not likely that the
                                     alien can be removed in the reasonably foreseeable future: (1) aliens

4
    8 CFR § 241.13(f).

              ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                           Page 4
                                  with a highly contagious disease that is a threat to public safety;
                                  (2) aliens detained on account of serious adverse foreign policy
                                  consequences of release; (3) aliens detained on account of security or
                                  terrorism concerns; and, (4) aliens determined to be specially
                                  dangerous. Certifying that an alien meets one of these criteria requires
                                  substantial factual support and the concurrence of senior government
                                  officials or, for “specially dangerous” aliens, an immigration judge.5

                         Two conditions can extend detention indefinitely, essentially stopping the
                         POCR process amid the 180-day removal period: (1) a court-granted stay of
                         removal pending judicial review; or (2) an alien’s failure to comply with the
                         government’s removal efforts. Aliens with a stay of removal must receive a
                         review from ICE DRO at 90 days, and annually thereafter. Aliens who fail to
                         comply with the government’s efforts to secure their removal must receive
                         regular warnings from ICE DRO of the consequences of their actions, but
                         need not receive a review of continued detention. Aliens who fail to comply
                         with the requirement to assist with obtaining a travel document can be
                         criminally prosecuted.6 Although some aliens have been convicted for non-
                         compliance, ICE DRO was not able to provide us with an estimate of
                         successful prosecutions. However, ICE officials explained that they were in
                         the process of establishing a reporting mechanism.

                         Previous Post-Order Custody Process Reviews

                         Since the Supreme Court’s ruling in Zadvydas, which placed limits on the
                         federal government’s authority to detain aliens, and the transfer of INS’
                         responsibility for detained aliens to ICE DRO, there have been a number of
                         reports and evaluations of the POCR process:

                              •   June 2003: The Inspector General for the Department of Justice
                                  reported that some “September 11 detainees who were held by the INS
                                  beyond 90 days after their final orders of removal did not receive a
                                  Post-Order Custody Review (POCR) as required by regulation.”7



5
  8 CFR § 241.14.
6
  Section 243(a) of Immigration and Nationality Act, 8 USC § 1253(a).
7
  The September 11 Detainees: A Review of the Treatment of Aliens Held on Immigration Charges in Connection with
the Investigation of the September 11 Attacks, June 2003, Department of Justice Office of the Inspector General,
Chapter 6. The Department of Justice Office of the Inspector General had oversight of the INS until 2003. This
responsibility transferred to the DHS Office of Inspector General when the INS’ detention programs moved to ICE.

           ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                        Page 5
                              •   May 2004: The General Accounting Office (GAO) determined that
                                  ICE could not identify detained aliens entitled to a post-order custody
                                  review, or POCR, in part because its database, the Deportable Alien
                                  Control System (DACS), is an “outdated, difficult-to-use, inefficient
                                  case management system.” In addition, ICE did not provide adequate
                                  guidance to its officers to help them prioritize their workload. The
                                  GAO reported that while ICE considered its POCR program
                                  inadequately staffed, ICE needed a methodology to determine staffing
                                  needs. The GAO concluded from its review of POCR files that there
                                  was a possibility that ICE was not complying with the regulations.8

                              •   April 2006: We determined that DACS “lacks the ability to readily
                                  provide DRO management with data analysis capabilities to manage
                                  the detention and removal program in an efficient and effective
                                  manner.” Resources expended to provide a replacement for DACS
                                  had not, to date, resulted in measurable progress. We recommended
                                  that ICE meet a biannual reporting requirement on upgrading DACS to
                                  a system “capable of meeting its expanding data collection and
                                  analyses needs.” We also reported that the practice of some countries
                                  to block or inhibit repatriation of their citizens, coupled with the
                                  Supreme Court rulings, resulted in release of many POCR cases. We
                                  listed China, Eritrea, Ethiopia, India, Iran, Jamaica, Laos, and Vietnam
                                  as countries blocking or inhibiting the repatriation of their citizens.9

                         In addition, in 2005 the Catholic Legal Immigration Network, Inc. (CLINIC)
                         published the results of interviews with immigration attorneys representing
                         clients who were in the POCR process nationwide. The report listed
                         conditions, such as remote detention facilities, local cooperation, record
                         keeping, staffing, and communication as problems contributing to prolonged
                         detention. CLINIC concluded that ICE was not uniformly complying with the
                         POCR regulations.10




8
  Better Data and Controls Are Needed to Assure Consistency with the Supreme Court Decision on Long-Term Alien
Detention,” GAO-04-434, May 2004. In July 2004, the Government Accounting Office was renamed the Government
Accountability Office.
9
  DHS OIG “Detention and Removal of Illegal Aliens: Immigration and Customs Enforcement,” OIG-06-33, April 2006.
10
   Catholic Legal Immigration Network, Inc., Systemic Problems Persist In U.S. ICE Custody Reviews for “Indefinite”
Detainees, Kathleen Glynn, Sarah Bronstein, 2005.

           ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                        Page 6
                         ICE’s Quality Assurance and Oversight Initiatives

                         In 2004, DRO’s HQCDU introduced a program to oversee the POCR process,
                         and improve the quality and timeliness of POCR decisions in field offices.
                         The HQCDU also sought to reduce the number of writ of habeas corpus
                         petitions filed in federal courts by detainees requesting a review of the
                         HQCDU’s justification for continued detention. The primary federal habeas
                         corpus statute, 28 U.S.C. § 2241, confers jurisdiction upon the federal courts
                         to hear petitions for review of continued ICE detention. The petitioners in
                         both the Zadvydas and Martinez decisions used habeas corpus petitions to
                         secure their release from detention. ICE does not have a centralized tracking
                         system for habeas corpus petitions. However, a standalone database in DRO
                         headquarters, the Detention and Removal Information Management System,
                         records habeas corpus petitions in which a field office or United States
                         Attorney’s Office requests assistance from headquarters. In the period from
                         the Zadvydas decision to March 2006, the Detention and Removal
                         Information Management System contained 2,152 habeas corpus petitions,
                         958 (46%) of which resulted in release, either from an ICE or United States
                         Attorney’s Office decision not to defend continued detention, or by order of a
                         federal judge. In addition, in our previous report we said that the number of
                         detainees released and removed as a result of the Zadvydas and Martinez
                         decisions is not known because DRO did not begin tracking these decisions
                         until FY 2005, and DACS still does not provide accurate reports on whether
                         those no longer in detention were removed or released within the United
                         States.11

                         The HQCDU developed guidance on the POCR process and standards,
                         including sample forms and letters, and posted those items on its internal
                         website. The 90-day POCR decision must be reviewed and signed by a Field
                         Office Director, Deputy Director, or an individual acting in those capacities.
                         The HQCDU provides training to Field Office Directors and staff at the
                         annual DRO conference, to new officers during their initial training, and
                         during field office visits. The unit also conducts follow-up visits: in FY 2005
                         it conducted 22 site visits; 6 site visits were conducted in FY 2006; and 24 are
                         planned in FY 2007. At present, these field visits are the only opportunity the
                         HQCDU has to review the quality and timeliness of the 90-day detention
                         decision unless such cases fall within the HQCDU’s jurisdiction at 180 days,


11
  DHS OIG “Detention and Removal of Illegal Aliens: Immigration and Customs Enforcement,” OIG-06-33, April
2006, page 19.

           ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                        Page 7
              and to determine whether field offices are following procedures when aliens
              fail to cooperate with efforts to secure their removal.

              To verify that the 180-day cases are reviewed in compliance with the
              Zadvydas decision, the HQCDU obtains a monthly DACS update of all the
              POCR cases and requires field offices to report on those cases that appear to
              have passed 180 days. However, DACS is not structured to track certain
              exceptions. As a result, the HQCDU cannot determine from the DACS update
              which aliens are eligible for a POCR review, and which do not require a
              review either because the alien has a stay of removal or is failing to comply
              with the government’s removal efforts. The HQCDU therefore relies on
              monthly updates from the field offices to obtain this information. For those
              aliens eligible for a post-order custody review, field offices provide the
              HQCDU with a detailed worksheet, including a recommendation on continued
              detention or release. The HQCDU makes the final decision on continued
              detention, based primarily on the worksheets provided by the field offices. In
              addition, the HQCDU requires that field offices request assistance
              immediately from the headquarters Travel Document Unit (TDU) in cases that
              involve certain countries that are usually slow to provide documentation, and
              for all cases where the field office has not obtained a travel document within
              75 days of the alien’s receiving a final order. A timeline of the POCR process
              is contained in Appendix D: POCR Timeline.

              We evaluated ICE’s compliance with detention time limits for aliens with a
              final order of removal, including the reasons for exceptions or non-
              compliance. As described in detail in Appendix A, we reviewed 210 files,
              which were selected based upon four categories of POCR aliens: (1) those
              from countries that generally provide travel documents quickly, including El
              Salvador, Guatemala, Honduras, and Mexico; (2) those from countries that
              typically either refuse or delay the issuance of travel documents, including
              Cambodia, China, Cuba, Haiti, India, Laos, Pakistan, and Vietnam; (3) those
              from countries for which obtaining travel documents is less routine because
              there are fewer aliens requiring removal, including African and European
              countries; and, (4) those who had been in detention for an unusually long
              time, generally longer than 12 months. The requested files included only
              aliens who were eligible for a post-order custody review based on the
              Zadvydas and Martinez decisions and identified as such in the DACS
              database. Both male and female aliens were represented, as well as aliens
              with and without an aggravated felony conviction. Of the 20 female aliens
              whose POCR files we requested, only 6 remained in detention, 3 without a
              criminal record, 2 with aggravated felonies, and 1 with a minor criminal

ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                             Page 8
              charge. Our selection method was intended to identify irregularities in the
              POCR process; generalizations therefore cannot be made from the cases to the
              POCR population as a whole.




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                             Page 9
Results of Review

       Compliance With Regulations Requires More Attention and
       Diligence
                            Approximately 80% of post-order custody aliens are removed or released
                            within 90 days. However, of the 210 alien files we reviewed, 14 (7%) had not
                            received a 90-day post-order custody review, and 3 of those aliens had been
                            detained longer than 180 days without a review. For those aliens remaining in
                            detention, field office compliance with regulatory review requirements was
                            inconsistent. In addition, required notification documents were not
                            consistently provided and when provided, were not consistently timely. Some
                            field offices were using incorrect legal standards and outdated materials, the
                            most serious example being the misapplication of the failure to comply
                            standard and the resulting suspension of the POCR process.

                            The HQCDU has provided comprehensive guidance and procedures for the
                            90-day and 180-day POCR decisions. It has also established a manual
                            tracking system for the 180-day POCR decisions. However, there are
                            weaknesses and potential vulnerabilities in the POCR process that cannot be
                            easily addressed with ICE’s current oversight efforts. These deficiencies will
                            directly affect ICE’s ability to manage the projected growth in its caseload
                            caused by DHS’ planned enhancements to secure the border as envisioned
                            with the Secure Border Initiative, the end of “catch and release” practices, and
                            an increase in interior enforcement programs.12 Specifically, cases are not
                            prioritized to ensure that aliens who are dangerous, or whose departure is in
                            the national interest, such as war criminals and supporters of terrorist
                            organizations, are removed or that their release within the United States is
                            adequately supervised. In addition, there is no measurable standard for
                            determining the likelihood that an alien can be removed to his or her country
                            of origin. Moreover, procedures for managing post-180 day cases are
                            inadequate, particularly when ICE has concluded that there is a significant
                            likelihood of removing the alien in the foreseeable future, or that the alien is
                            not cooperating.



12
     http://www.dhs.gov/dhspublic/interapp/press_release/press_release_0794.xml

              ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                          Page 10
                 Majority of Detainees Are Removed Within 90 Days But
                 More Oversight Is Needed
                         Previous reports and evaluations of the POCR process focused on the ICE
                         DRO’s ability to track and manage cases, as the DACS database was not
                         designed to perform this function. The HQCDU now obtains a monthly
                         update from DACS of all aliens in detention who have a final order of
                         removal, information that allows some analysis of the characteristics of the
                         POCR caseload. However, the DACS monthly update does not provide
                         information on whether aliens no longer listed as detained have been removed
                         to a country of origin or released within the United States.

                         Of the 8,690 aliens with a final order of removal who were in detention in
                         March 2006, only 1,725 (20%) were still detained by June 2006 (see Table 1).
                         However, detention rates vary widely by region and country of origin.

                                     Table 1: Detentions Past 90 Days, By Region Of Origin13
                                                              Aliens In         Aliens Still    Percent Still
                                      Region of Origin        Detention          Detained        Detained
                                                             March 2006         June 2006        June 2006
                                     Africa                        643                304           47%
                                     Oceania                        34                 15           44%
                                     Asia                        1,156                485           42%
                                     Caribbean                   1,220                396           32%
                                     Europe                        378                 79           21%
                                     North America                 879                114           13%
                                     South America                 640                 69           11%
                                     Central America             3,740                263            7%
                                     Total                       8,690              1,725           20%

                         Long-term detention is directly related to the return policies of an alien’s
                         country of origin. For example, as depicted in Table 1 and Chart 1, the sharp
                         decline in the number of detained North and Central Americans reflects high
                         levels of cooperation from those governments in providing travel documents
                         and accepting removals. ICE deportation officers informed us that the
                         governments of Honduras, Guatemala, Mexico, and El Salvador routinely
                         provide travel documents for their nationals, and that most are removed from
                         the United States before 90 days. In Chart 1, of the 1,323 Hondurans in

13
  See DHS statistical yearbooks for countries within each region of origin.
(http://www.uscis.gov/graphics/shared/statistics/yearbook/2003/2003Yearbook.pdf).

           ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                       Page 11
              detention in March 2006, only 55 (4%) were still detained in June 2006, and
              most had been returned to Honduras. Only 2 of 1,323 Hondurans had been in
              detention more than 360 days.

                                     Chart 1: Detention Rates By Country Of Origin


                                                                                       Still Detained after 90 Days
                                Detained POCR Aliens                                   Still Detained after 360 Days
                                    in March 2006                                      Removed from or Released
                                                                                       within the United States


                                 Cooperative                 Non-Cooperative                      Difficult
                                  Countries                     Countries                         Countries

                                        1,268                      175                                 86
                                                  2                                2
                                                  53                      26                                    19
                                                                                                      46

                                    Honduras                       Cuba                              India
                                   1,323 Aliens                  203 Aliens                        151 Aliens


                                        1,214     10                59                                    172
                                                                                                                     29
                                                  51                      17                         165

                                   Guatemala                       Laos                              Haiti
                                   1,275 Aliens                  76 Aliens                         366 Aliens


                                          772                       31                                 30
                                                  27
                                                                          11                         24         10
                                                  52

                                      Mexico                     Cambodia                           Pakistan
                                     851 Aliens                  42 Aliens                          64 Aliens


                                         733      15                 92                                    90
                                                                               8                     124        32
                                                                     2025%
                                                  77

                                    El Salvador                   Vietnam                            China
                                    825 Aliens                   125 Aliens                        246 Aliens

                  Source: DACS, OIG Analysis




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                       Page 12
              In contrast, as depicted in Chart 1, the sharp decline in the number of detained
              Cubans, Laotians, Cambodians, and Vietnamese, reflects ICE DRO’s
              recognition that there is usually no significant likelihood that the governments
              of these countries will issue travel documents for their nationals. Therefore,
              most aliens from these counties must eventually be released within the United
              States unless the stringent regulatory standards for special circumstances can
              be met. ICE deportation officers said that most aliens from these countries are
              released within the United States after 90 days. If aliens from these countries
              are a violent threat to the community, but do not meet the stringent standard
              for special circumstances cases, most are released within the United States
              after 180 days. For example, in March 2006 there were 203 Cubans in
              detention, and by June 2006 all but 28 (14%) of this group were no longer in
              detention, most released within the United States. Only 2 of 203 Cubans had
              been in detention more than 360 days. These figures, based on DACS POCR
              reports, do not include Cubans paroled into the United States from the 1980
              Mariel boatlift, as Mariel Cubans are tracked separately in DACS.

              Finally, as depicted in Chart 1, the high detention rates among Indians,
              Haitians, Pakistanis, and Chinese, reflect that removals are possible, but
              difficult, for these nationalities. Deportation officers said that these countries
              either provide travel documents routinely after long delays, or provide them
              sporadically based on internal political circumstances or diplomatic pressure
              from the United States. For example, in March 2006 there were 246 Chinese
              in detention. By June 2006, 156 (63%) were still detained because China had
              agreed during negotiations with the United States to accept a charter flight of
              its nationals, but then delayed the charter several times. Of the 246 Chinese
              nationals detained in March 2006, 32 had been in detention more than 360
              days. During our fieldwork, ICE deportation officers informed us that the
              United States government had reached agreements with the governments of
              China, India, and Haiti to authorize the return of a substantial number of
              nationals from these countries and that some detained aliens had already been
              removed.

              As shown in Appendix E: Detentions Past 360 Days the correlation between
              countries that are slow to produce travel documents and the length of
              detention some aliens experience was most apparent when we examined
              detention rates for the group of 428 aliens who had been detained for more
              than 360 days as of June 2006. Reasons for the longer detention rates among
              the group of 428 vary, and might include the alien’s failure to comply, or a
              court’s grant of a stay of removal. The longer detention rates might also result
              from an expected removal that does not occur or a belief that travel documents

ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 13
              will be issued in a reasonable period of time. However, very few of the 428
              aliens were formally certified as special circumstances cases, the four
              categories of cases for which continued detention is justified to protect the
              public or the national interest. For example, only 36 cases were held as
              “specially dangerous.” No cases, however, were certified under the remaining
              three categories, as having a highly contagious disease, or a potentially
              adverse affect on national security, or the national interest if released. See
              Appendix F: Special Circumstances Cases for more information on DHS’
              certifications.



     Inconsistent Use of Available Guidance and Resources by
     Field Offices Contributes to Compliance Issues
              To determine whether the detention of aliens with a final order complies with
              Supreme Court decisions, regulations and ICE guidance, we reviewed a
              sample of alien files at each of the seven DRO offices where we conducted
              site visits. We determined that post-order custody reviews were not
              consistently conducted, and that required notifications and reviews were not
              consistently complete or timely. While the HQCDU has developed and
              posted on its website extensive guidance, not all field offices visited were
              using the materials. The most serious consequence was that some detainees
              were deemed to have failed to comply, and therefore removed from the POCR
              process, without sufficient justification. For more information on field offices
              selected for site visits and our sample of alien files reviewed, see Appendix A.

              Post-Order Custody Reviews Are Not Consistently Conducted

              Of the 210 alien files we examined, 82 were eligible for a post-order custody
              review. We determined that 11 of these 82 aliens had not received a 90-day
              post-order custody review, and 3 had not received either a 90-day or 180-day
              review. Case completion rates varied widely by field office as depicted in
              Figure 1 and Table 2, which illustrate the disposition of the sample files.




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 14
                            Figure 1: Disposition Of Requested POCR Case Files

                           210 Files Requested

                                                                        23 Removed From US
                           Current Post-Order               NO          20 Released Within US
                             Custody Case?                              9 Transferred/Detained
                                                                        8 Miscoded/No Final Order
                                  YES
                             150 POCR Cases

                                                                        13 Failure to Comply
                           Post-Order Custody               NO          27 Stay of Removal
                            Review Required?                            17 POCR Date Miscoded
                                                                        11 Other Miscodes/Changes

                                  YES

                             82 POCR Cases



                             Required Review                NO
                               Conducted?
                                                                        14 POCRs Not Conducted



                                  YES

                           68 POCRs Conducted
                        Source: OIG File Review



                                Table 2: Sixty-Eight POCR Reviews Conducted

                            ICE Field               POCR          POCR               POCR
                              Office               Required      Conducted          Deficiency
                         Site I                       23            14                   9
                         Site II                      17            14                  3
                         Site III                     15            14                   1
                         Site IV                      8              7                  1
                         Site V                        9             9                   0
                         Site VI                      8              8                  0
                         Site VII                      2             2                   0
                             TOTAL                    82            68                  14



ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                  Page 15
              Notifications and Decisions Are Not Consistently Complete or Timely

              In addition to conducting the 90- and 180-day reviews required by regulation,
              ICE guidance requires that an alien be notified within the first 30 days of
              detention of the consequences of failing to comply with requests to assist the
              federal government in obtaining travel documents, and of the specific
              information the alien should provide to assist with the custody determination.
              In addition, the regulations and ICE guidance require notification within the
              first 60 days that a POCR will take place on or before 90 days of detention
              after a final order of removal.

              As shown in Figure 2, field offices did not consistently serve the required
              notices, and the notifications and post-order custody reviews that DRO did
              serve were not consistently timely. For example, the 90-day review was
              timely in approximately 81% of the cases; however, the 180-day review was
              only timely in 66% of the cases. While notification documents were provided
              in more than 80% of all cases, only one document was provided on time in
              more than 50% of the cases. Deportation officers listed a variety of reasons
              for delayed or missing documents, including staffing shortages, competing
              priorities among duties, such as fugitive task force operations and escorting
              removals overseas, a preference for more training, difficulty tracking cases,
              and unforeseen delays in removal.

              We counted cases that did not require a particular notification document, such
              as the 60-day notification of POCR file review for an alien who was failing to
              comply or had a stay of removal, as complete and timely. We excluded one
              field office from the count of the 30-day notification forms: as it did not keep
              copies of the forms in the alien’s file, timeliness is calculated from the 122
              cases reviewed for the other six field offices. Interviews with local pro bono
              organizations and a review of the files at the detention center confirmed that
              the notifications were being served. To identify only cases that were seriously
              overdue, we counted the 30-day notifications as timely if they occurred within
              the first 45 days, the 60-day notification as timely if it occurred within the first
              75 days, and the post-order custody review as timely if it occurred within 10
              days of the deadline.




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 16
                         Figure 2: Timeliness of POCR Notifications and Decisions



                Deadline                   Requirement         Percent Completed         Percent Timely




                                    Warning on Compliance             82%                      49%
                                        (Form I-229)                 (100 /122)               (60 /122)


                   30
                  DAYS
                                        Instruction Sheet
                                           to Detainee                80%                      47%
                                                                     (98 /122)                (57 /122)
                                      to Assist in Removal



                   60                Notice to Alien of File          81%                      67%
                  DAYS                 Custody Review                (121/150)                (100/150)




                   90                    90-Day Review                91%                      81%
                  DAYS                 (POCR Worksheet)              (136/150)                (121/150)




                   180                  180-Day Review                94%                      66%
                  DAYS                 (POCR Worksheet)               (44/47)                  (31/47)



                 Source: OIG File Review



              Guidance Not Fully Implemented

              DRO field offices have not fully incorporated headquarters guidance into their
              operating procedures. At several sites we visited, deportation officers were
              either unaware of the HQCDU website where POCR guidance is available, or
              were aware the site existed but had not used it. As a result, several field
              offices were using outdated or inaccurate forms. One of the field offices
              issued its 90-day denial letter with a misleading statement that, “[w]e will
              conduct another review of your custody status within six months of the date of
              this notice,” while the regulations require a second review 90 days after an

ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                               Page 17
              initial denial. Four field offices were using a version of the Notice to Alien of
              File Custody Review that used the standard–“clear and convincing evidence
              that [the alien] will not pose a danger to the community and will not be a
              significant flight risk”–drawn from pre-Zadvydas regulations. The ICE Office
              of the Principal Legal Advisor confirmed that the older “clear and
              convincing” language in these Notices was more stringent than the language
              in the Notice posted on the website. While the website Notice predates the
              transfer of detention authority from the Attorney General of the Department of
              Justice to the DHS Secretary, the legal standard–that evidence must be “to the
              satisfaction of the Attorney General” that the detainee “will not pose a danger
              to the community and will not present a flight risk”–is accurate.

              In addition, the HQCDU provides clear
              guidance on the elements that must be                   Material Deficiencies
              included in the 90-day denial letter provided        A  Pakistani alien was told
                                                                   that, “ICE is in possession of a
              to aliens; the case history; a criminal history,
                                                                   travel document to effect your
              if convicted; an evaluation of the release           removal.” In a series of
              criteria; and a decision specific to the alien’s     emails eight days later, the
              circumstances. However, of the 150 POCR              deportation officer told ICE
              case files we reviewed, 44 (29%) did not             headquarters that the office
                                                                   was still working on the travel
              address all of these elements. In addition, of
                                                                   document request.
              the 68 cases for which there was a POCR
              required and completed, 32 (47%) had at least
              one substantive deficiency. As a result, field offices had provided detainees
              notifications with outdated and inappropriate language and standards. See
              Appendix G: Substantive Deficiencies in POCR Worksheets for additional
              details.

              Failure to Comply Standard Needs to be Properly Applied

              ICE defines failure to comply with efforts to secure removal as refusing to
              comply with a request for a concrete action, such as signing a travel request
              document or talking to a consular officer. According to HQCDU guidance,
              “[t]he removal period shall be extended and the alien may remain in detention
              during such extended period if the alien fails or refuses to make timely
              application in good faith for travel or other documents necessary to facilitate
              the alien’s departure or conspires or acts to prevent the alien’s removal. This
              includes any failure or refusal on the part of the alien to provide information
              or to take any other action necessary to obtain a travel document [See INA
              241(a)(1)(C) of the Act]. Prior to the government suspending the removal
              period, the alien must have (1) Been served with a notice of what he/she is

ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 18
                             required to do; (2) Been given the opportunity to comply; and
                             (3) Subsequently failed to comply.”14 An alien who challenges a final order of
                             removal through court processes, including appeals, stays of removal, and
                             motions to reopen denial decisions, is not considered failing to comply with
                             the removal order. The Office of Principal Legal Advisor told us that the
                             misapplication of failure to cooperate standards is one deficiency that makes
                             continued detention decisions difficult to defend once an alien files a petition
                             of habeas corpus. As depicted in Figure 1: Disposition of Requested POCR
                             Case Files, in addition to the 82 cases for which a POCR was required, there
                             were 68 cases for which a review was not required. Of the 68 cases, the field
                             office had identified 13 as failing to comply
                             with requests to assist the government in
                                                                                       Failure To Comply
                             obtaining travel documents. However, we              The Nigerian consulate
                             observed that in only 8 of the 13 cases did the      refused to supply a travel
                             deportation officer provide evidence that the        document for one citizen until
                             alien was actively impeding the process of           DHS addressed an untreated
                                                                                  injury sustained a year earlier
                             obtaining travel documents, for instance by
                                                                                  in DHS custody and provided
                             refusing to sign a travel document request or        a settlement for belongings
                             misrepresenting nationality. The evidence in         stolen by a DHS officer. (The
                             the remaining five files did not support the         officer was convicted of
                             basis for determining that these aliens were         theft.) The detainee was
                                                                                  denied review as failure to
                             failing to comply. In addition, although ICE
                                                                                  comply.
                             headquarters guidance requires that aliens who
                             fail to comply must receive notification
                             monthly, and the 13 failure to comply cases had been detained with a final
                             order for more than 90 days, only 4 of the 13 cases had the required
                             notifications in the alien’s file.


Resource Allocation and Management Constrains the POCR Process
                             According to a 2004 GAO report, Better Data and Controls Are Needed to
                             Assure Consistency with the Supreme Court Decision on Long-Term Alien
                             Detention, and our 2006 audit report, Detention and Removal of Illegal
                             Aliens: Immigration and Customs Enforcement, ICE DRO does not have
                             adequate resources to provide management and oversight for the POCR



14
     The INA refers to the Immigration and Nationality Act.

              ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                          Page 19
                         caseload.15 The GAO recommended that ICE DRO assess staffing needs and
                         use its estimates to support funding and personnel requests.16 Both the GAO
                         report and our audit report observe that the DACS database failed to meet
                         GAO’s information technology standards, which at a minimum should enable
                         the agency to determine whether it is “achieving its compliance requirements
                         under various laws and regulations.”17 In our audit report we requested that
                         ICE provide us with bi-annual updates on its progress in replacing DACS.

                         Because the recommendations made in those reports are still outstanding, this
                         report will outline some of the consequences of ICE’s resource limitations, but
                         we will not make duplicate recommendations. We do point out, however, that
                         ICE could implement more immediate changes to improve the POCR process.
                         Closing these gaps should shorten detention time for aliens who could be
                         removed. It could also provide the HQCDU with earlier notice to make
                         provisions for aliens whose release within the United States would be most
                         problematic.

                POCR Compliance Oversight Is Limited
                         POCR Program Is Understaffed

                         Budget constraints during the first years after DHS was created contributed to
                         a hiring freeze within ICE, and the ranks of deportation officers were depleted
                         by attrition. For most field offices we visited, deportation officers managing
                         the POCR caseload had been assigned this responsibility within the last year
                         and had not received formal training. These officers were either hired or
                         promoted after the budget constraints were resolved. Despite limited
                         resources, ICE DRO drafted excellent guidance to field officers on the 90-day
                         post-order custody review, adapted the program to comply with the Supreme
                         Court’s Martinez decision on inadmissible aliens, and introduced close
                         oversight of the 180-day review. ICE DRO reports that it intends to introduce
                         additional measures when more staff and resources become available. While
                         ICE has not provided a staffing model in response to the GAO
                         recommendation, most field offices suggested that a ratio of 75 to 100
                         detainees to each deportation officer would be a manageable caseload. At

15
   Better Data and Controls Are Needed to Assure Consistency with the Supreme Court Decision on Long-Term Alien
Detention,” GAO-04-434, May 2004. DHS OIG “Detention and Removal of Illegal Aliens: Immigration and Customs
Enforcement,” OIG-06-33, April 2006, page 21.
16
   GAO-04-434, May 2004, p. 25.
17
   DHS OIG-06-33, April 2006, page 21.

           ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                       Page 20
              present, most offices are operating with detainee to officer ratios over 100 and
              some as high as 150 cases per officer. Because the GAO recommendation is
              still outstanding, we are not making a recommendation on developing a
              staffing methodology or on increasing staffing positions for the POCR
              process. However, full implementation of several recommendations in our
              report requires additional ICE deportation officers, and additional support
              staff, contract resources, or a more effective database.

              When discussing HQCDU staffing levels, officials at ICE DRO offices in
              headquarters and in the field, as well as other entities that work closely with
              ICE DRO, such as the Office of Principal Legal Advisor and the Department
              of Health and Human Services’ Public Health Service, considered the
              HQCDU to be understaffed. The HQCDU currently relies on four full-time
              staff and a few deportation officers who have been detailed to manage the
              POCR caseload, which averaged 1,098 post-180 day cases during the period
              of our review, from March 2006 to June 2006. In addition to adjudicating the
              180-day cases forwarded from 22 ICE DRO field offices, HQCDU officers
              are responsible for special circumstances cases and habeas corpus claims, as
              well as for developing guidance and training and conducting oversight and
              training site visits.

              Attorneys from the Office of Principal Legal Advisor who work closely with
              the HQCDU officers assigned to manage national security and terrorism
              cases, and cases involving war criminals and human rights abusers, estimated
              that the HQCDU should have at least one officer working full time on each of
              these caseloads, whereas there is currently one officer working on both in
              addition to that officer’s other duties. One attorney told us that because it has
              insufficient staff, the HQCDU is reactive, focusing on cases nearing the 180-
              day deadline. The attorney said that with adequate staffing, the HQCDU
              could take a more proactive approach to monitoring and prioritizing the whole
              caseload, which might secure faster returns and fewer releases.

              In addition to the national security and national interest cases, one HQCDU
              officer works almost exclusively on obtaining closely supervised release or
              certification for mentally ill aliens who are violent. Another HQCDU officer
              manages habeas corpus petitions as a collateral duty. The HQCDU conducted
              six field office trainings in FY 2006, which is also a collateral duty. HQCDU
              staff estimated that the unit has been authorized to hire a few more officers,
              but would require a total of about ten officers and a corresponding level of
              administrative staff to provide adequate oversight and support. We were not


ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 21
                            able to determine how many support staff or contract resources would be
                            required to support additional headquarters and field deportation officers.

                            Better Tracking Systems Required for Program Management

                            Enhancing staffing levels alone will not address the deficiencies we identified
                            in the POCR process. With the case disposition from our file review, as
                            previously discussed and shown in Figure 1, we illustrate key deficiencies
                            with DACS for managing the POCR process. For example, the monthly
                            caseload report that the HQCDU obtains is quickly outdated as aliens are
                            removed, released, or transferred. DACS cannot distinguish POCR cases that
                            are due for a 180-day review from cases where the alien is failing to comply,
                            has a stay of removal or is otherwise ineligible for review. Moreover, while
                            the monthly DACS report identifies aliens convicted of an aggravated felony,
                            DACS cannot identify for HQCDU the most critical cases, such as sexual
                            predators, national security risk and national interest cases, and aliens with
                            mental health problems that require certification or intensely supervised
                            release. As reported in our previous audit report, DRO’s DACS database is
                            outdated and cannot meet field office and headquarters case tracking and
                            program management needs.18

                            The quality of information entered into DACS is also problematic. Alerts for
                            approaching deadlines must be manually calculated, entered, and checked;
                            therefore, many field officers do not use them. DACS can only track a portion
                            of the regulatory POCR requirements, and some data fields are so difficult to
                            update that they are often left blank. The completeness of information that is
                            easier to update also varies by officer and field office.

                            Because of the deficiencies with DACS, both headquarters and field offices
                            have developed several parallel tracking systems that require duplicate data
                            entry. Each month the HQCDU obtains a report from DACS identifying cases
                            that appear to have a final order. The HQCDU sends the list of cases that
                            appear to have passed 180 days to each field office, as well as POCR cases in
                            earlier stages. The field offices submit a POCR worksheet for the HQCDU to
                            adjudicate or provide information on why the case is not eligible for the 180-
                            day post-order custody review. The HQCDU reviews the information
                            provided by the field, and alerts the Field Office Director regarding potential
                            case management errors. All of the officials from the field offices we visited
                            said that, in addition to DACS and monthly updates for the HQCDU, the field

18
     DHS OIG-06-33, April 2006, page 21.

              ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                          Page 22
                         offices track POCR cases through other locally developed systems, ranging
                         from handwritten logs to other databases.

                         In addition to the monthly updates from the field offices, the HQCDU enters
                         some information on the 180-day cases into the Detention and Removal
                         Information Management System, a database developed to provide ICE DRO
                         headquarters with case tracking and documentation capabilities that are not
                         available in DACS. The HQCDU and Office of Principal Legal Advisor also
                         maintain an informal tracking system for habeas corpus cases referred to
                         headquarters, and Office of Principal Legal Advisor attorneys involved with
                         special circumstances cases might also track the cases in a case management
                         system used by DHS attorneys, the General Counsel Electronic Management
                         System.19

                         The result of having multiple tracking systems is that no one source of
                         information at either ICE headquarters or ICE field offices can be relied upon
                         as complete. For example, as demonstrated in Figure 3, out of 150 POCR
                         files we reviewed, 23 cases involved habeas corpus petitions, but relatively
                         few were captured by more than one tracking system.

                                     Figure 3: Habeas Corpus Petitions


                                                                                                                                        D e t e n t io n a n d
                                              F ie ld O f fic e                                                                               R em oval
                                                  P aper                                                                                  I n fo r m a t io n
                                               A lie n F ile                                                                             M anagem ent
                                                                                                                                      S y s t e m D a ta b a s e




                                                                                             8                                    4
                                                                                                                  1
                                                                                                      3                     5



                                                                                                                  2




                                                                   O ff ic e o f P r in c ip a l L e g a l A d v is o r T r a c k in g L is t


                                       S o u r c e s : F ile r e v ie w a n d h e a d q u a r te r s tr a c k in g s y s te m s




19
 Chief, Knowledge Management Division, Office of the Principal Legal Advisor, Assessment for the Immigration and
Customs Enforcement (ICE) General Counsel Electronic Management System, April 25, 2005.

           ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                                            Page 23
                           There are two scheduled upgrades to DACS that should improve the quality of
                           information available to the HQCDU and the field offices. The first was
                           slated for field-testing in October 2006, and is intended to integrate existing
                           DACS functions into ICE’s Enforcement Case Tracking System (ENFORCE).
                           ENFORCE is the primary administrative case management system for ICE. It
                           provides access to biometric data, information on investigations and on
                           national security and intelligence activities. The initial upgrade is primarily
                           designed to eliminate the need to enter information into both ENFORCE and
                           DACS, and to eliminate the parallel tracking systems that field offices use to
                           supplement DACS.

                           The second upgrade, the ENFORCE Removals Module, is projected to be
                           operational between April 2007 and January 2008. According to GAO, the
                           ENFORCE Removals Module “will eventually be able to automatically
                           identify which aliens are due for a post order custody review and generate key
                           information such as when aliens should be notified of the review and when the
                           review is to be done.”20

                           Field Offices Are Not Consistently Monitoring Compliance

                           Due to staffing constraints, the HQCDU must limit its oversight efforts to the
                           180-day post-order custody review, habeas corpus cases for which
                           headquarters assistance has been requested, special circumstances cases, and
                           field training site visits during which trainers review 90-day POCR cases and
                           failure to comply cases. Headquarters staff advised us that its monthly
                           deficiencies reports on the 180-day cases demonstrate that the quality of the
                           180-day submissions is improving. However, headquarters staff also said that
                           the quality of information received still varies by field office, and obtaining
                           additional information from the field can be a major part of the decision-
                           making process for 180-day cases.

                           In a February 2006 memorandum to the field, ICE DRO stressed that the Field
                           Office Director or Deputy must “thoroughly review POCR worksheets and
                           written decisions prior to signing. All POCR case reviews must be completed
                           within the timeframes specified in regulations. Information contained in the
                           POCR worksheet must be accurate and complete, and all written decisions
                           must be legally sufficient and in compliance with current regulations and



20
     GAO-04-434, May 2004, page 14.

             ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                         Page 24
                         policy.”21 Our file review indicated that Field Office Directors are not
                         consistently reviewing the quality and timeliness of field notifications and
                         decisions. Of the 68 POCR worksheets we reviewed, only 4 had not been
                         signed by the Field Office Director, Deputy, or Acting Director. However,
                         almost half of the POCR worksheets had material deficiencies, which we
                         depict in Appendix G. In addition, as demonstrated in Figure 2, notifications
                         and decisions were not consistently completed or timely. Until ENFORCE
                         has the capability to track regulatory compliance automatically, increased
                         monitoring and case-specific reporting by Field Office Directors represents
                         the most practical interim option for verifying compliance.

                TDU Support for the POCR Process Is Not Adequate
                         The TDU is responsible for assisting field offices when post-order custody
                         cases have passed 75 days without receiving a travel document, and for
                         assisting with all cases from countries for which obtaining travel documents is
                         particularly difficult. In July 2006, DACS indicated that there were 3,157
                         POCR cases over 75 days old, and an additional 1,282 cases from countries
                         for which the field must request immediate TDU assistance. The TDU is also
                         responsible for non-detained post-order custody cases, which was reported to
                         be 749,695 active alien cases in July 2006. In addition to requesting
                         individual travel documents for field offices, the TDU is responsible for
                         supporting ICE field offices abroad, and for negotiating with foreign
                         governments to obtain cooperation on travel document issuance. The TDU’s
                         staffing has fluctuated between three and six permanent deportation officers,
                         with a few other staff detailed to provide additional support. The TDU has
                         been recently authorized to hire 12 full time deportation officers.

                         The TDU Chief told us that inadequate staffing and funding meant that the
                         TDU has not provided field offices with adequate training and guidance on
                         obtaining travel documents. In discussing successful strategies for obtaining
                         travel documents, the TDU Chief said that each country has its own
                         citizenship laws and procedural requirements and if deportation officers do
                         not follow these requirements, the chances of obtaining a travel document
                         decrease. During our site visits, we observed that while three of the field
                         offices routinely obtained and used some of the travel document applications
                         required by the alien’s country of origin, four other field offices were

21
 Memorandum from the Acting Director, ICE DRO, to Field Office Directors, “Delegation of Authority for Post-Order
Custody Review Decisions,” February 22, 2006.

           ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                       Page 25
                         routinely sending foreign consulates nothing more than passport photographs
                         and a DHS Form I-217, Information for Travel Document or Passport. The
                         DHS Form I-217 is completed at apprehension or detention with information
                         on the alien’s biography and on available identity or travel documents. The
                         four offices generally completed travel document request forms required by
                         the alien’s country of origin only when asked to do so by the foreign
                         consulate. The TDU Chief observed that a website with links to nationality
                         laws and a checklist of required forms for each country of origin would
                         enhance the quality of travel requests that officers in the field submit to
                         consulates on receiving the final order. The TDU Chief said that the TDU
                         would need additional staff and funding to conduct or contract out the
                         necessary research and website updates.

                         The TDU Chief also said that the unit’s
                         ability to assist field offices is limited by the       TDU Assistance
                                                                           A British subject with a non-
                         quality of travel document requests it            violent criminal record
                         receives. Despite issuing detailed guidance       apprehended on the Canadian
                         to field offices on requirements for              border spent more than six
                         forwarding travel document requests to the        months in detention without a
                                                                           post-order custody review.
                         TDU, the TDU receives many requests that
                                                                           His protracted
                         consist of only a partially completed Form I-     correspondence with the
                         217 and passport photographs.22 For               British consulate eventually
                         example, we observed the TDU Chief                resulted in a travel document.
                         reviewing several travel document requests;
                         the majority of which had only passport photographs and an incomplete Form
                         I-217, and a few of which had only the passport photographs and a letter
                         requesting assistance.

                         The TDU Chief explained that current staffing levels mean that the TDU
                         cannot obtain information from the field in order to complete each Form I-217
                         before sending it to the consulate, so the TDU must decide whether to send
                         the incomplete information to the consulate, or return the package to the field
                         office for completion. Moreover, because there is no mechanism in place for
                         tracking and prioritizing travel document requests, the TDU cannot easily
                         provide field offices with feedback on deficiencies and cannot identify and
                         prioritize cases for which release within the United States could have the most
                         serious consequences.


22
 Memorandum for Field Office Directors, from the Director, Office of Detention and Removal, Subject: “Requests for
Assistance in Obtaining Travel Documents,” August 21, 2003.

           ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                       Page 26
                    More complete travel document requests submitted by field offices, when they
                    assume custody of an alien with a final order of removal, will not address all
                    of the issues that cause countries of origin to deny or delay the issuance of
                    travel documents. However, providing more complete field office requests is
                    prudent and could reduce detention time for some POCR cases. Further,
                    additional training, guidance, and oversight on obtaining travel documents by
                    the TDU will be more feasible once the TDU receives additional staffing.
                    This assistance could also shorten detention time for some POCR cases.

                    Recommendations

                    We recommend that the Assistant Secretary for Immigration and Customs
                    Enforcement:

                         1. Direct that each Field Office Director report case-specific compliance
                            with POCR regulations and guidance to the HQCDU on a quarterly
                            basis, and that the HQCDU report these results to the Assistant
                            Secretary on a semi-annual basis until such information can be
                            obtained through ENFORCE.

                         2. Ensure that existing vacancies in the TDU are filled and, as staff or
                            funding becomes available, ensure the TDU upgrades its intranet to
                            provide country-specific guidance on obtaining travel documents,
                            including information on nationality laws and checklists of required
                            information, to field deportation officers.


Making Removals a Priority Requires Additional Resources, Support,
and Oversight
                    We identified weaknesses in the POCR process that cannot be easily resolved
                    with current staffing and technological resources. ICE must develop capacity
                    building measures that address these weaknesses if it is to manage increasing
                    detention numbers. Both the HQCDU and TDU have relied on staff detailed
                    from field offices to fill short-term staffing needs. Detailing field officers is
                    not just a means of addressing staffing shortages; it offers an opportunity to
                    introduce practical and innovative responses to these challenges. During our
                    fieldwork, we observed locally developed best practices that improved the
                    timeliness, efficiency, and quality of post-order custody reviews. For
                    example, one office used a combination of check sheets and weekly file

      ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                  Page 27
              reviews to ensure that all POCR notifications and decisions were timely and
              complete. (See Appendix H: Procedural Challenges and Best Practices for
              additional examples).

     Removals of National Interest Cases and Dangerous Aliens
     Should Be Prioritized
              The Supreme Court decisions in Zadvydas and Martinez require that those
              aliens who cannot be removed be released within the United States, with a few
              stringent exceptions for “special circumstances cases,” which are further
              limited by some federal courts. While the Supreme Court decision and the
              regulations require that the alien demonstrate that removal cannot be effected,
              in practice HQCDU initiates the 180-day review and determines whether there
              is a significant likelihood of removal, and following this review, field
              deportation officers assume responsibility for initiating subsequent reviews.
              Yet ICE had little evidence that it is prioritizing the removal of aliens who are
              violent criminals, have suspected terrorist ties, or have been ordered removed
              as war criminals, and consequently they may be released within the United
              States.

              For example, aliens with a violent criminal
              history–including those with mental health                     Prioritization
              problems or convictions for domestic violence           One   Mariel Cuban who had
                                                                      been convicted of assault
              or sexual assault–were no more likely to have           and battery on a child, and
              received a timely review, been served required          whose release criteria
              notices, have accurate language in the denial           specified placement in a
              letter, have complete travel document                   halfway house with
              information, or have been flagged at an early           supervision, was instead
                                                                      released to a first-come-
              stage to obtain HQCDU assistance with removal           first-served homeless
              or supervised release. Because many halfway             shelter.
              houses and other institutions refuse aliens with
              mental health problems and a history of
              violence or criminal activity, making such arrangements can be a difficult and
              lengthy process. Additionally, ICE does not advise the TDU that these cases
              require expedited processing to hasten the removal of aliens who pose a threat
              to public safety, national security, or the national interest. Figure 4 illustrates
              a range of criminals versus non-criminals among the cases we reviewed, and
              numbers released, detained, or deported. Of the 68 cases we reviewed, 38



ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 28
              involved aliens who were violent or posed a potential threat to the national
              interest. Of the 38 cases, 11 aliens were released and only 1 was removed.

               Figure 4: File Review of 68 POCR Case Dispositions



                                                                                   Continued in Detention
                    National Interest
                       (6 Cases)              3           3                        Released
                                                                                   Removed

                    Violent Criminal
                       (10 Cases)                     8                    2

                    Domestic Violence,
                     Sexual Assault                   8                        4   1
                       (13 Cases)

                   Violent Criminal with
                     Mental Problems                  7                2
                         (9 Cases)


                   Non-Violent Criminal
                        (10 Cases)                4           4            2

                      No Criminal
                         Record                                   15                          3      2
                       (20 Cases)



                 Source: OIG File Review




              Even violent criminal aliens who require treatment for mental illness are
              entitled to release after 180 days, unless the federal government demonstrates
              that the violent behavior is due to a mental condition, the alien is likely to
              engage in acts of violence in the future, and no condition of release can ensure
              the safety of the public. Of the cases we reviewed, ten aliens had both mental
              health problems and convictions for violent behavior, but only one had been
              formally certified as “specially dangerous”–a requirement to justify continued
              detention. ICE was not able to obtain travel documents for the remaining
              nine, four of whom were from countries that rarely take back their nationals.
              The remaining five were from countries that issue documents sporadically or

ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 29
              have procedural requirements that an alien with mental health problems could
              not easily meet. Deportation officers were therefore responsible for arranging
              suitable release conditions. Five of the nine cases, still unresolved at 180
              days, were referred to ICE headquarters, which then referred them to the
              Public Health Service for placement. One HQCDU official told us that this
              process could take three to six months, even after the Public Health Service
              receives the case. A Public Health Service official commented that ICE field
              officers have neither the social work training nor the contacts with mental
              health facilities to assist in the placement of these aliens. The Public Health
              Service official said that without professional assistance, the placement
              process can be time-consuming and may result in inappropriate placement or
              in the failure to secure any placement. The Public Health Service is generally
              not involved in field level placements and when the cases are referred to ICE
              headquarters at 180 days, the Public Health Service feels pressure from ICE to
              resolve the cases quickly.

              National security and national interest cases do
              not receive more intensive monitoring as they                National Interest
              move through the POCR process. These cases             A  denaturalized  Nazi war
                                                                     criminal did not receive any
              are typically considered for continued                 of the required review
              detention as “special circumstances” cases.            notices, his post-order
              ICE had identified six aliens in our review as         custody review was late, no
              potential national security risks or human             alert placed on his record in
              rights violators, all from countries to which          DACS, and he was entered
                                                                     into the Detention and
              removal is difficult. For three of the six,
                                                                     Removal Information
              several federal agencies, including ICE                Management System only as
              Fugitive Operations, had put considerable              a travel document request
              effort into apprehending the aliens and                case, not as a POCR case.
              securing a final order of removal. Again, field
              office files were not prioritized nor were there
              any heightened efforts to monitor or remove these aliens. The HQCDU kept a
              file on only one of those detained after a final order for more than 90 days but
              less than 180. Only two of the six national security and national interest
              aliens were flagged in DACS to ensure that ICE headquarters was consulted
              before any action was taken. ICE’s Human Rights Law Division provided
              assistance on one of the human rights violator cases, and the HQCDU had
              cleared the denial letter of one national security risk case, but the alien files
              for four of these six cases were among the 32 files we present in Appendix G
              as having material deficiencies.



ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 30
                            Recommendation

                            We recommend that the Assistant Secretary for Immigration and Customs
                            Enforcement:

                                 3. Develop and staff a program to identify and prioritize cases involving
                                    aliens who represent a violent threat to the public or are national
                                    security or national interest cases, so that efforts to secure travel
                                    documents are expedited, and placement procedures are initiated early
                                    for those who might require eventual release within the United States.


                    Likelihood of Removal Standard Needs to be Documented
                    and Transparent
                            In the Zadvydas decision, the Supreme Court said, “for detention to remain
                            reasonable, as the period of prior post-removal confinement grows, what
                            counts as the ‘reasonably foreseeable future’ conversely would have to
                            shrink.”23 While ICE regulations provide a list of factors for determining
                            whether there is a significant likelihood of removal, they do not refer to, or
                            provide guidance on, how to apply the Supreme Court’s requirement that the
                            decision to detain be subject to greater scrutiny over time.24 Moreover,
                            because ICE regulations require that the significant likelihood decision be
                            made at headquarters, the HQCDU has not developed written guidance for the
                            field beyond the language in the Supreme Court decision and the regulations.

                            When we asked the TDU how it defined the significant likelihood of return,
                            the TDU said it takes into account five factors: (1) actions by the country of
                            origin; (2) the country’s level of interest in cooperating; (3) whether travel
                            documents are issued consistently even if documents are issued well after the
                            180-day milestone; (4) whether repatriation requirements can be met; and, (5)
                            feedback the TDU receives from the consulates. The TDU said that its
                            deportation officers rely on their knowledge of documentary requirements,
                            and general experience on return rates, when assessing whether there is a
                            significant likelihood of removal. However, because ICE does not track
                            actual removal rates, it is not developing statistics on the likelihood of
                            removal by nationality, or assessing the accuracy of its predictions based on
                            these five factors.
23
     Zadvydas v. Davis 533 U.S. 678 (2001), at 701.
24
     8 CFR § 241.13(f).

              ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                          Page 31
                            After reviewing denial letters, POCR worksheets, other documentation in
                            alien files, entries in DACS and the headquarters Detention And Removal
                            Information Management System, headquarters files on 180-day cases, and
                            declarations prepared by TDU officers defending continued detention
                            following a habeas corpus decision, we conclude that ICE DRO rarely
                            provides specific evidence to explain its significant likelihood determinations.
                            Further, ICE rarely provides specific estimates of the time required to obtain
                            travel documents, and rarely identifies additional measures it would need to
                            take to secure the documents.

                            While headquarters ICE DRO staff might
                            not need extensive documentation to                  Likelihood Of Removal
                                                                            A non-criminal alien has been
                            explain 180-day post-order custody              detained with a final order since
                            reviews, field officers responsible for         April 2005. The HQCDU denied
                            managing the cases after the 180-day            release, as recommended by the
                            denial, the United States Attorney’s            Field Office Director, because the
                            Offices, and federal judges who respond         “government of Ethiopia regularly
                                                                            issues travel documents to effect the
                            to petitions of habeas corpus must make         repatriation of its nationals.”
                            decisions based on the information              Although Ethiopia subsequently
                            provided by ICE DRO headquarters.               denied the request, the alien remains
                            Most of the detention decisions reviewed,       detained pending a removal request
                            including both the 180-day denials and          to Eritrea.
                            TDU habeas corpus declarations,
                            provided only limited statements that return was possible in the alien’s case,
                            that ICE could effect returns to the alien’s country of origin, or that there are
                            no permanent barriers to return.

                            According to the ICE DRO Field Manual, “For All Cases Over 180 Days (90
                            Days Beyond the 90-Day Removal Period) HQ[CDU] will hold jurisdiction
                            for custody decisions pursuant to 8 CFR § 241.4, § 241.13, and § 241.14. The
                            field officer will retain responsibility for docket control, case management,
                            completion of future reviews, and will continue appropriate follow up efforts
                            to remove the alien. Once HQ[CDU] issues a decision to continue detention
                            and the alien has not been removed within a reasonable time frame, the local
                            field office is to inform HQ[CDU] by way of a memorandum (which is also to
                            include any updates to the POCR package) so that a new custody decision
                            under 8 CFR § 241.13 may be made.”25 While headquarters guidance requires
                            field officers to notify headquarters when an alien is not removed “within a
                            reasonable time frame,” HQCDU 180-day decisions to detain do not provide

25
     ICE DRO Field Manual Chapter 17, Section 17.11 (b).

              ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                          Page 32
              field officers with an estimate of what is reasonable for a given country of
              origin and an alien’s circumstances. These decisions also provide little basis
              for United States Attorney’s Offices and federal judges to assess habeas
              corpus petitions. The Chief of the TDU told us that when the country of
              origin is accepting some removals, ICE will generally contest the habeas
              corpus petition, but that some detention decisions cannot be defended when a
              petition has been filed.

              There is great value in tracking travel document issuance rates and compiling
              comprehensive statistics. For example, one successful TDU declaration to
              defend continued detention following a habeas corpus petition cited statistics
              compiled by the British government. An objective metric, such as the time
              required to remove 80%, or 90%, of aliens to a given country of origin, could
              assist field deportation officers in making release decisions, support ICE in
              conducting negotiations with countries of origin, and assist ICE and the
              United States Attorney’s Offices in determining whether to defend continued
              detention when a habeas corpus petition is filed. Additional country-specific
              or case-specific information would allow ICE the flexibility to make release
              decisions early in the POCR process, or to continue detention beyond the
              typical travel document issuance date. However, the TDU’s need for
              additional staff and the necessary technological infrastructure extends to its
              inability to track and analyze return rates by country of origin.

              Recommendation

              We recommend that the Assistant Secretary for Immigration and Customs
              Enforcement:

                   4. Develop an objective and transparent methodology for determining
                      whether there is a significant likelihood of removal for all cases, which
                      considers: (1) the Supreme Court’s requirement for increasing
                      scrutiny over time; (2) the factors outlined in ICE regulations; and,
                      (3) comprehensive statistics on actual removal rates for all POCR
                      cases forwarded to the TDU.

     Oversight of Aliens Held Longer Than 180 Days Is
     Insufficient
              Although the burden on the federal government increases the longer an alien
              is held in detention, ICE regulations and procedures provide less oversight and

ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 33
                            review after an alien has been held 180 days. Citing the Supreme Court’s
                            decision in Zadvydas, ICE guidance acknowledges, “the longer an alien
                            remains in ICE custody with a final order, the higher the government’s burden
                            to establish that the alien’s removal will occur in the reasonably foreseeable
                            future.”26 Yet some aliens are held for reasons that appear to weaken with
                            time. In addition, others cases appear to be at an impasse, with neither the
                            alien nor ICE taking steps to resolve the situation. Such cases would benefit
                            from a broader range of strategies to ensure regulatory compliance and the
                            most effective use of existing resources, such as detention space.

                            ICE procedures require field deportation
                            officers to monitor the status of aliens who            Post 180-Day Oversight
                            have received a 180-day “significant likelihood        One detained Indian’s travel
                            of removal” decision, give non-compliant               document request was
                            aliens an opportunity to comply every 30 days,         submitted in October 2004.
                            and update the case in DACS at a minimum of            The last documented review
                                                                                   of the likelihood of issuance
                            every 30 days. Beyond these requirements, the          of a travel document in the
                            guidance requires a file review 90 days after          reasonably foreseeable future
                            the 180-day decision, and the resubmission of          took place in April 2005.
                            the POCR worksheet 180 days after the initial
                            180-day decision. Yet neither review requires
                            additional actions that could facilitate an alien’s removal or release. For
                            example, the review does not require a request for a written decision from a
                            consulate on travel document requests, an interview with the alien to obtain
                            more current information on the alien’s efforts to secure travel documents, or
                            a discussion with the alien on possible release options. Nor is there evidence
                            in the files that post-180 day reviews are consistently conducted. Of the 150
                            POCR cases we reviewed, 64 (43%) had been in detention with a final order
                            for more than 180 days and had not received a post-order custody review in
                            the last 90 days, and 36 (24%) had not received a review in the last 180 days.
                            These figures include cases where the detainee had a stay of removal, was
                            removed from the POCR process timeline for failure to comply, or had
                            already received a 180-day review, as well as those who should have received
                            a 180-day review and did not.

                            Continued detention of these aliens is not closely monitored, and the basis for
                            headquarters’ decision on the likelihood of securing travel documents may not
                            be fully articulated or might not remain relevant. For instance, negotiations
                            on returns underway during the 180-day post-order custody review might have

26
     ICE DRO Field Manual, Chapter 17, Removal Process: Post Order Custody Reviews (POCR) Section 17.3(b).

              ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                          Page 34
              stalled. For aliens detained after a 180-day review, field deportation officers
              continue to manage the case, but in many instances do not have information to
              determine whether a significant likelihood of removal still exists, unless they
              receive an explicit denial from the consulate. Further, aliens do not appear to
              be providing sufficient information to field deportation officers: of the 68
              aliens who received POCR decisions, only 25 (37%) had submitted
              information relevant to the release criteria, either in a prior immigration
              hearing or during the POCR process.

              For those aliens who fail to comply with
              removal efforts, continued detention might not             TDU Assistance
              be based on the criteria specified in the            A Federal Bureau of
                                                                   Investigation translator and
              regulations and guidance. For example, failure       two Iranian consuls
              to comply decisions do not consistently follow       questioned an alien’s claim
              guidance, and are not consistently documented        that he was Iranian, based on
              in required monthly warnings. In addition,           his dialect and poor
              deportation officers currently have few options      knowledge of the country.
                                                                   Years later he was still
              when aliens fail to comply. For instance, at         detained as an Iranian failure
              least five of the removal cases held for more        to comply case.
              than 180 days involved aliens who were
              obscuring their nationality. However,
              deportation officers did not have access to linguistic or cultural experts who
              could have provided assistance in determining the alien’s country of origin.
              While there have been successful prosecutions for failure to comply, most
              United States Attorney’s Offices do not consider such cases a priority.

              Moreover, while some field offices have integrated pro bono organizations
              into the POCR process, field offices that do not might be limiting options for
              resolving impasses and avoiding some habeas corpus releases. Before DHS
              was created, the role of pro bono organizations was more institutionalized in
              immigration processes. These organizations had access to detainees through
              free telephone service and “know your rights” presentations at detention
              facilities. In addition, most field office directors met periodically with pro
              bono organizations to discuss systemic issues. Such coordination was prudent
              as it established a conduit for issue resolution. Issues that could not be
              resolved at the field office level could then be challenged in court.

              When DHS was created, field offices were separated into benefits
              administration and enforcement functions. Some pro bono organization
              representatives we interviewed said that there was no longer a routine
              mechanism for addressing post-order custody review issues with ICE Field

ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 35
              Office Directors. The field offices that work closely with pro bono
              organizations cited examples of how DHS benefits from such cooperation.
              They said that the pro bono organizations could provide: (1) assistance with
              release of aliens with mental health problems; (2) independent advice to aliens
              who mistakenly believed they are entitled to release at six months even when
              the alien failed to cooperate or filed successive stays of removal; and,
              (3) notification when aliens and their consulates have difficulty
              communicating. For example, we were told by pro bono organizations that
              the telephones in many detention facilities do not allow detainees free access
              to their consulates and pro bono organizations, as required by detention
              facility standards. We confirmed that in only one of the seven facilities we
              visited were all telephones correctly programmed to allow free calls.
              Communication with consulates was further constrained when consulates had
              not taken measures to enable detainee calls to be answered by automated
              systems.

              When avenues for direct communication with ICE officials do not exist, pro
              bono organizations appear to rely on the courts to review compliance with
              post-order custody review regulations. Three pro bono organizations reported
              that they consider the habeas corpus petition the most effective way to obtain
              review after 180 days. Field deportation officers and an Office of Principal
              Legal Advisor said that, while many decisions to detain can be supported
              against a habeas corpus petition, in some cases the United States Attorney’s
              Office is unwilling to defend the decision due to workload priorities. In other
              habeas corpus cases, aliens have been released due to insufficient
              documentation in the file to support continued detention. While not all
              habeas corpus petitions filed are recorded in the Detention and Removal
              Information Management System, the database does document that, between
              January 2005 and April 2006, in 78 of the 185 (42%) habeas corpus petitions
              on file, the alien was released. The database does not provide the reason for
              many of the decisions, does not document whether ICE had already made a
              decision to release at the time the habeas corpus petition was filed, and does
              not document whether the individual was released before a federal judge
              heard the case. The total number of habeas corpus petitions tracked in
              Detention and Removal Information Management System since 2001 is 2,152,
              of which 958 (45%) aliens were released.




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 36
              Recommendation

              We recommend that the Assistant Secretary for Immigration and Customs
              Enforcement:

                   5. Develop and staff a program to improve oversight of all aliens who
                      have been in detention longer than 180 days after a final order of
                      removal. Oversight should include periodic field office meetings with
                      local pro bono organizations.


     Management Comments and OIG Analysis
              We evaluated ICE DRO’s written comments and have made changes to the
              report where we deemed appropriate. Below is a summary of ICE DRO’s
              written response to the report’s recommendations and our analysis of the
              response. A copy of ICE DRO’s response, in its entirety, is recorded in
              Appendix B.

              Recommendation 1: Direct that each Field Office Director report case-
              specific compliance with Post-Order Custody Review regulations and
              guidance to the Custody Determination Unit (HQCDU) on a quarterly basis
              and that the HQCDU report these results to the Assistant Secretary on a semi-
              annual basis until such information can be obtained through Enforcement
              Case Tracking System (ENFORCE).

              ICE DRO Response: ICE DRO responded this recommendation has been
              satisfied through its current procedures and recommends it be closed. ICE
              DRO said it has an established case-specific compliance program, where a
              monthly report is generated, which makes establishing quarterly reporting
              redundant. Each month all Field Office Directors provide case-specific
              updates on all final order aliens detained post-180 days. DRO’s HQCDU
              oversees the reports from field offices and reports back to the Field Office
              Directors for action on cases in which deficiencies are noted. Also, the
              HQCDU uses the monthly report, in conjunction with its site visits to field
              offices, to monitor and maintain quality control of the POCR process. After
              each site visit, a detailed report is provided by the HQCDU to the DRO
              Director.

              Moreover, headquarters DRO proposes to begin reporting the monthly 180-
              day case review results to the DRO Director, who reports directly to the

ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 37
              Assistant Secretary. For the review of 90-day POCR cases, headquarters
              DRO will establish, within the next 90 days, an enhanced review process to
              ensure better compliance with regulations and policies, such as random
              sampling of pre-180 day cases. Also, additional review initiatives will be
              introduced through the case management system that will replace DACS.

              OIG Evaluation: We consider these actions not responsive to the intent of
              the recommendation. The recommendation is unresolved and open. ICE
              DRO proposes short-term quality assurance measures that would not address
              the concerns our report raises. Although the HQCDU site visits can provide
              valuable feedback on substantive issues, ICE needs to verify compliance with
              its regulations and guidance on the service of all: notification documents;
              failure to comply warnings; and conduct of 90-day, 180-day, and post-180 day
              reviews. We recommended each Field Office Director report to the HQCDU
              case-specific compliance with POCR regulations and guidance on a quarterly
              basis and that these results be reported to the Assistant Secretary on a semi-
              annual basis until such information can be obtained through the Enforcement
              Case Tracking System (ENFORCE). We made this recommendation because
              our file review indicated that Field Office Directors are not consistently
              reviewing the quality and timeliness of field notifications and decisions. Of
              the 68 POCR worksheets we reviewed, only 4 had not been signed by the
              Field Office Director, Deputy, or Acting Director. However, almost half of
              the POCR worksheets had material deficiencies, which we depict in Appendix
              G of the report. In addition, as demonstrated in the report’s Figure 2,
              notifications and decisions were not consistently completed or timely. As
              Field Office Directors or their delegates sign most POCR documents, they are
              uniquely positioned to track, monitor, and report compliance. Some field
              offices have already introduced tracking systems and checklists that would
              meet this requirement.

              Further, the Assistant Secretary should have a familiarity with the quality and
              timeliness of decisions Field Office Directors are signing to determine
              whether existing programs and resources for training, monitoring, and
              oversight are sufficient. Reporting requirements are temporary measures until
              ENFORCE can provide such information.

              Recommendation 2: Ensure that existing vacancies in the Travel Document
              Unit (TDU) are filled and, as staff or funding becomes available, ensure that
              TDU upgrades its intranet to provide country-specific guidance on obtaining



ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 38
              travel documents, including information on nationality laws and checklists of
              required information to field deportation officers.

              ICE DRO Response: ICE DRO concurred with this recommendation. It said
              that vacancy announcements have been posted and that as the seven vacancies
              are filled, TDU staff will obtain updates on the travel document process in
              specific countries. TDU will update its intranet site with field advisories and
              other information deemed necessary and useful to field offices.

              OIG Evaluation: We consider these actions responsive to the intent of the
              recommendation. This recommendation is resolved, but remains open
              pending receipt of additional action items and documentation. For example,
              we want notification when the vacancies have been filled and when a program
              is in place to introduce and update the intranet to assist field offices with
              country of origin information.

              Recommendation 3: Develop and staff a program to identify and prioritize
              cases involving aliens who represent a violent threat to the public or are
              national security or national interest cases, so that efforts to secure travel
              documents are expedited, and placement procedures are initiated early for
              those who might require eventual release within the United States.

              ICE DRO Response: ICE DRO responded the HQCDU has staff dedicated
              to the case management of aliens deemed to be a national security interest, as
              well as the placement of aliens for whom release is warranted but whose
              mental condition and prior violent tendencies may pose a threat to the
              community. DRO works with other ICE components, as well as other law
              enforcement agencies, to identify cases of special interest and to ensure that
              appropriate action is taken before release or removal. In addition, DRO has
              established a working group with the Department of State to assist in the
              removal of these aliens. As more staff is added, the HQCDU and TDU will
              ensure that additional resources are assigned to the oversight of these cases, as
              their proper handling is a priority for DRO.

              OIG Evaluation: We consider these actions responsive to the intent of the
              recommendation. This recommendation is resolved, but remains open
              pending receipt of additional action items and documentation. For example
              we want notification when vacancies have been filled and when a program is
              in place to identify and prioritize cases.



ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 39
              Recommendation 4: Develop an objective and transparent methodology for
              determining whether there is a significant likelihood of removal for all cases,
              which considers: (1) the Supreme Court’s requirement for increasing scrutiny
              over time; (2) the factors outlined in ICE regulations; and (3) comprehensive
              statistics on actual removal rates for all POCR cases forwarded to the TDU.

              ICE DRO Response: ICE DRO responded it does not concur with this
              recommendation and recommends it be closed. ICE DRO said any
              methodology must be subject to case-specific circumstances, changes in
              country conditions, and diplomatic relationships. Requiring such a
              methodology is comparable to requiring a methodology that defines “beyond a
              reasonable doubt” in the criminal proceedings context. ICE DRO said it
              believes sufficient guidance is already provided and that it is difficult to
              develop a transparent methodology appropriate to the circumstances of all
              cases. Further, the HQCDU issues all significant likelihood of removal
              decisions. ICE DRO also provided examples of cases in which judicial
              requirements, congressional private bills, consular standards, and diplomatic
              relations could affect the likelihood of removal.

              OIG Evaluation: We consider these actions not responsive to the intent of
              the recommendation. The recommendation is unresolved and open. The
              issues ICE DRO raises do not interfere with its ability to develop an objective
              and transparent methodology, and are not in conflict with its need to establish
              one.

              ICE DRO’s methodology for 90-day decisions, provided through regulations
              and field guidance, demonstrate that an objective and transparent
              methodology is consistent with making decisions based on the facts of each
              case, and can serve as a model for developing written criteria for 180-day and
              post-180 day decisions.

              ICE DRO makes thousands of decisions on POCR cases each year, and many
              should be analyzed to identify the effect on removals for such factors as
              country of origin, consular office and officer, ongoing negotiations or
              sanctions, available documentation, the presence or absence of criminal and
              mental health factors, and the need to identify a third country to accept aliens
              who cannot be removed to a country of origin. Therefore, the overall
              accuracy of HQCDU’s predictions could and ought to be tracked and analyzed
              to inform future decisions on detention, and the equally important negotiations
              with countries of origin.


ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 40
              Although HQCDU makes all 180-day and post-180-day POCR decisions,
              once the 180-day decision has been made, responsibility for monitoring cases
              and initiating subsequent reviews shifts to deportation officers in the field.
              HQCDU has cited only two circumstances in which field officers would have
              information to initiate a post-180 day review: (1) when the consulate issues
              the field office a formal denial, which ICE officials reported is uncommon,
              and (2) when six months after the 180-day review have elapsed. Relying on
              one of those two events to trigger a post-180 day review is not sufficient to
              meet the Supreme Court’s requirement that scrutiny of a decision to detain be
              increased over time. Absent a written decision from the HQCDU, that
              provides the basis for the 180-day decision and a written projection on when
              necessary actions by the alien, the alien’s government, the United States
              government, or other responsible parties, will have occurred, deportation
              officers do not have necessary information to determine when to initiate a
              review of post-180 day detention. Also, initiation of a review at this stage
              does not automatically compel the HQCDU to release the alien.

              Moreover, the decisions made by the HQCDU could be, and are, challenged
              in court through writ of habeas corpus petitions. While the HQCDU does not
              track all aliens released in response to a habeas corpus challenge, available
              statistics from the HQCDU database suggest that approximately 40% of
              POCR aliens are released after a habeas corpus petition is filed. This release
              rate implies government entities, including the HQCDU, the Office of the
              Principal Legal Advisor, United States Attorney’s Office, and federal court
              judges, are finding the decisions made under the existing system can not be
              supported when challenged. Below we provide an explanation of one possible
              model for developing a methodology, which incorporates specific country,
              event, and case criteria.




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 41
OIG Sample Methodology:
  ICE DRO 180-Day Decision Triangle
    In this model, ICE DRO considers information from the following sources, from bottom to top,
    when making 180-day and “significant likelihood of removal in the reasonably foreseeable
    future” decisions. Each level modifies information from the one below. Levels also progress
    from providing regularly available information for all cases, such as our recommended
    analysis of return rates for all aliens, to country- and case- specific information, such as pilot
    programs or a consulate’s decision on a particular detainee.

                                                             ...and makes a decision to
                                                             release, remove or detain an
                                                             alien under “significant
                                                             likelihood of removal in the
                                                             reasonably foreseeable
                                         Consulate           future” guidance.
                                        Information



                                         Detainee
                                       Submissions
                                                                   HQCDU provides the field
                                                                   office with a written
                                                                   decision including:
                                   U.S. Legal Restrictions
                                                                                     - Return rates most
                                                                                    relevant to the alien's
                                                                                    country of origin and
                                                                                    profile (criminal,
                         Diplomatic Efforts, such as Pilot Programs,                mental health)
                            Planned Negotiations, and Potential
                                         Sanctions                                  - Basis of decision to
                                                                                    detain (historic return
                                                                                    rate, event or case-
                                                                                    specific decision)
                          Current or Emerging Country Conditions
                                                                                    - Assessment of a
                                                                                    reasonable timeframe
                                                                                    needed to effect
                                                                                    removal in this case
                      Deportation Officers’ Knowledge and Experience



                Statistical Measures and Return Rates Compiled by ICE DRO




    DRO considers...

   Source: OIG Analysis




         ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                       Page 42
              Recommendation 5: Develop and staff a program to improve oversight of all
              aliens who have been in detention longer than 180 days after a final order of
              removal. Oversight should include periodic field office meetings with local
              pro bono organizations.

              ICE DRO Response: ICE DRO responded the HQCDU has a program in
              place to monitor aliens who have been in detention longer than 180 days after
              a final order of removal. ICE said the program has succeeded in decreasing
              deficiencies in case management. However, due to limited staffing, the
              HQCDU has prioritized and concentrated its effort on overseeing post-order
              aliens in detention for more than 180 days. Additional funding will allow ICE
              DRO to increase the HQCDU staffing levels and enable the unit to more
              proactively implement the program. Also, ICE DRO plans to conduct annual
              site visits to all field offices, closely monitor post-order detained cases, and
              continue to provide training. ICE DRO concurred that field offices meet with
              pro bono organizations periodically, but does not agree that these meetings
              should be tied to the “oversight” function, because this function is operational
              in nature.

              OIG Evaluation: We consider these actions responsive to the intent of the
              recommendation. This recommendation is resolved, but remains open
              pending receipt of additional action items and documentation. For example,
              we want notification when vacancies have been filled, and when a program is
              in place to improve oversight of aliens who have been in detention longer than
              180 days. For clarification, we are not suggesting pro bono organizations
              would conduct oversight of the program, only that such organizations are a
              source of information on potential compliance issues, can assist in resolving
              post-180 day cases, and can–and do–raise compliance issues in court if they
              are not resolved at the local field office level. Guidance to field offices on
              periodic meetings with pro bono organizations ought to emphasize this
              distinction to avoid confusion.




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 43
              Appendix A
              Purpose, Scope, and Methodology


              Purpose, Scope, and Methodology
                 Appendix A: Purpose, Scope, and Methodology
              We reviewed ICE’s compliance with detention time limits for aliens with a
              final order of removal, including the reasons for exceptions or non-
              compliance. During our review, we focused on three areas:

                   •   Compliance with the Supreme Court rulings in Zadvydas v. Davis 533
                       U.S. 678 (2001) and Clark v. Martinez 543 U.S. 371 (2005), and
                       implementing regulations.
                   •   The quality of guidance provided by the HQCDU.
                   •   ICE’s management practices, including its ability to track and
                       prioritize cases and conduct nationwide quality assurance.
              The review included interviews with ICE headquarters and field staff, analysis
              of monthly reports from the DACS database, site visits to 7 of ICE DRO’s 53
              docket control offices, two each in ICE’s western and central regions, and
              three in its eastern region, and a review of selected alien files. ICE DRO is
              divided into 3 regions, 22 field offices (formerly districts), and 53 docket
              control offices. Two of the sites we visited were in the same field office, but
              under different docket control offices. The review did not address the
              sufficiency of release decisions, the success of alternatives to detention, or
              ongoing negotiations with foreign governments.

              Two of the field sites were chosen because either ICE or pro bono
              organizations recommended them as best practices sites. Five were selected
              because ICE, pro bono organizations, or an analysis of data in DACS
              indicated there might be program deficiencies. The review also included
              telephone interviews with supervisors at three ICE field offices identified by
              ICE and pro bono organizations as having best practices. Because site
              selection was not random, the results of our review cannot be considered
              representative of the performance of ICE field offices nationwide.

              Our work at each site consisted of three elements: staff interviews, a tour of a
              local detention center, and POCR case file reviews. We interviewed officials
              throughout DRO as well as attorneys from the Office of Principal Legal
              Advisor. We also spoke with Public Health Service officials who help place
              detainees with mental health problems. Our headquarters and field visits
              included meetings with pro bono organizations that represent detained aliens.
              Our tours of detention facility focused on detainees’ ability to communicate
              with their consulates and legal representatives, their access to legal materials,
              and visitation policies and other services.


ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 44
              Appendix A
              Purpose, Scope, and Methodology


              Our file review covered 210 POCR cases requested from DRO field offices.
              We selected those cases from the following categories:

                   1) Mexicans and Central Americans – these countries have historically
                      placed a high priority on facilitating return of their nationals as quickly
                      as possible, so detentions beyond 90 days required explanation.
                   2) Countries refusing or delaying repatriation of nationals – these
                      countries historically have either refused to accept their nationals, are
                      slow in processing requests, or have unusually stringent standards of
                      proof of citizenship (Cambodia, China, Cuba, Eritrea, Ethiopia, Haiti,
                      India, Iran, Iraq, Jamaica, Laos, Pakistan, and Vietnam).
                   3) Countries whose nationals appear less frequently in the POCR
                      caseload, making travel document requests less common – these
                      include countries in Africa and Europe.
                   4) Detainees with DACS entries that indicated long detention time –
                      irrespective of nationality, those aliens who have been detained past
                      the 180 days, in some cases for several years.
              Case information was extracted from DACS and from ICE headquarters’
              monthly 180-day report. We also reviewed a balance of criminal versus non-
              criminal detainees and removable versus inadmissible aliens. Because males
              were disproportionately represented in all but one site, we generally reviewed
              all female detainee cases. Our file review results cannot be generalized to the
              POCR program as a whole, since the review focused on cases where the
              DACS monthly report suggested anomalies and countries for which
              deportation officers have less experience obtaining travel documents.

              Fieldwork began in April 2006 and was completed in July 2006. This review
              was conducted under the authority of the Inspector General Act of 1978, as
              amended, and according to the Quality Standards for Inspections, issued by
              the President’s Council of Integrity and Efficiency.

              We would like to offer our appreciation for the cooperation and courtesies
              extended by ICE to our staff during this review.
              .




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 45
              Appendix B
              Management Response to Draft Report


              Management Response to Draft Report
               Appendix B: Management Response to Draft Report




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 46
              Appendix B
              Management Response to Draft Report




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 47
              Appendix B
              Management Response to Draft Report




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 48
              Appendix B
              Management Response to Draft Report




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 49
                      Appendix C
                      Supplementary Management Response


Appendix C: Supplementary Management Response




        ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                    Page 50
              Appendix C
              Supplementary Management Response




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 51
                       Appendix D
                       POCR Timeline


                  POCR Timeline
Appendix D: POCR Timeline

                                                                     START
                                                                 Alien Receives a
                                                                   Final Order                        RELEASE
                         30 Days                                                                      within U.S.
                        I-229 and                                                                      [CFR241.13]
                    Instruction Sheet                                        DETAIN
                                                                1           [CFR 241.13]
                                                                             Significant
                                            2                               Likelihood of
                                                                              Removal
                                             REMOVE                                                    Post-180 Day
     45 Days                                                                                            POCR Due
                                                                     DETAIN
   Notice of File                      DETAIN                       [CFR 241.14]                 6
                                       [CFR241.4]                      Special
     Review                             Failure to                  Circumstances
                          3             Cooperate

                                            POCR Timeline:
    75 Days
     Travel                            From Final Order to 180 Days
   Document                                                                           REMOVE
 Request to HQ        4
                                        REMOVE

                              5                          DETAIN
        90 Day                                           [CFR241.4]
       POCR Due                                         Threat to the
                                                        Community or
                                                         Flight Risk
        RELEASE
        within U.S.
         [CFR241.4]




         ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                     Page 52
                       Appendix E
                       Detentions Past 360 Days, By Region of Origin


                    Detentions Past 360 Days, By Region of Origin, as of June 13, 2006
Appendix E: Detentions Past 360 Days, By Region Of Origin
                                              Aliens In           Aliens        Percent
                      Region of Origin        Detention          Detained      Detained
                                              June 2006        Past 360 Days Past 360 Days
                    Africa                        643                87            14%
                    Oceania                        34                 8            24%
                    Asia                        1,156               116            10%
                    Caribbean                   1,220                90             7%
                    Europe                        378                31             8%
                    North America                 879                29             3%
                    South America                 640                28             4%
                    Central America             3,740                39             1%
                            Total               8,690               428             5%




         ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                     Page 53
                            Appendix F
                            Special Circumstances Cases


                            Special Circumstances Cases

                     ICE regulations outline four categories of special circumstances that permit
                     detention beyond 180 days even if there is no significant likelihood that travel
                     documents can be obtained in the reasonably foreseeable future: (1) aliens
                     with a highly contagious disease that poses a threat to public safety; (2) aliens
                     detained on account of serious adverse foreign policy consequences of release;
                     (3) aliens detained on account of security or terrorism concerns; and,
                     (4) aliens determined to be specially dangerous, i.e., criminals whose violent
                     behavior is due to a mental condition, who are likely to engage in acts of
                     violence in the future, and for whom no condition of release can ensure the
                     safety of the public.27 Certifying that an alien meets one of these criteria
                     requires substantial factual support and the concurrence of senior government
                     officials or, for “specially dangerous” aliens, an immigration judge.
Appendix F: Special Circumstances Cases
                     With the exception of certifying aliens who are specially dangerous, special
                     circumstances certifications are rare. Certification that a release would have
                     adverse foreign policy consequences has been used twice on high-profile
                     persecutors, both of whom were subsequently removed. No alien has yet been
                     certified as a national security or terrorist risk, but a small number of cases are
                     being monitored for this eventuality. It is unlikely that the fourth certification,
                     for highly contagious diseases, will ever be used.

                            Highly Contagious Disease

                            ICE can continue to detain an alien indefinitely if it obtains certification that
                            the alien meets one of the four “special circumstances” listed above. For
                            certification that an alien has a highly contagious disease, or is specially
                            dangerous due to a psychological condition that cannot be treated, ICE
                            coordinates with the Public Health Service, a division of the Department of
                            Health and Human Services. Among the evidence required to support the
                            certification, the regulations require a medical examination and the
                            recommendation of the Public Health Service. To date there have been no
                            certifications for highly contagious diseases, and ICE officers said that it is
                            unlikely there will be one in the future, as most conditions can be treated
                            during the first 180 days of detention.

                            Specially Dangerous

                            At the time of our review, there were 36 aliens in detention who have been
                            referred to Public Health Service as specially dangerous. Among the evidence
27
     8 CFR § 241.14.

              ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                          Page 54
              Appendix F
              Special Circumstances Cases


              required to support the certification, a physician employed or designated by
              the Public Health Service must conduct a full medical and psychiatric
              examination of the alien, and must include recommendations on whether the
              alien is likely to engage in acts of violence based on a mental condition or
              personality disorder. A Public Health Service official told us that while aliens
              who qualify as specially dangerous are rare, the number of aliens with violent
              criminal convictions related to mental health problems, most commonly
              schizophrenia, is much larger. The Public Health Service provides assistance
              in locating alternatives to detention for these aliens if the local field offices
              have not found a suitable program. Public Health Service usually assumes
              responsibility for such cases at 180 days but in some cases they are referred
              earlier in the process.

              Adverse Foreign Policy Consequences

              For certification that a release would have adverse foreign policy
              consequences, the HQCDU coordinates with the ICE Human Rights Law
              Division. Among the evidence required to support the certification, the
              Secretary of State must provide evidence of reasonable grounds to believe that
              there would be adverse foreign policy consequences, and must notify
              Congress of the identity of the alien and the reason for the determination. The
              certification for adverse foreign policy consequences has been used twice, in
              each case for an alien who had committed numerous persecutory acts in an
              official capacity in his country of origin. Both have subsequently been
              successfully removed with assistance from the Department of State. At the
              time of our review, the Human Rights Law Division estimated that it was
              assisting the HQCDU to obtain travel document for about five aliens, and
              would, if necessary, enlist the help of the Department of State to locate a third
              country willing to take the alien. There is no formal tracking mechanism for
              these cases, although some are flagged in DACS to alert deportation officers
              in the field not to release or remove without consulting with ICE headquarters.

              Security or Terrorism Concerns

              ICE’s National Security Law Division assists the HQCDU in cases where an
              alien is certified as a terrorist or security risk. Among the evidence required
              to support the certification, the government must provide the alien with a
              written description of the factual basis of the claim and respond to the alien’s
              rebuttal. To date, the formal certification process has not been used, but the
              National Security Law Division estimated that they are monitoring about 15
              cases in the POCR caseload. There is also no formal tracking mechanism for
              these cases, although some are flagged in DACS.


ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 55
              Appendix G
              Substantive Deficiencies in POCR Worksheets


   Substantive Deficiencies in POCR Worksheets for the 68 Review Cases
           (Cases might be deficient for more than one reason)
       Appendix G: Substantive Deficiencies in POCR Worksheets



                         Material inaccuracies in the POCR worksheet
                                          (28 cases)

                        Reason for denial decision not clearly articulated
                                           (17 cases)

                Discrepancies between POCR worksheet and alien submissions
                                        (13 cases)

                         Overstatement of travel document availability
                                          (10 cases)

                 Standard for failure to comply does not follow CDU guidance
                                            (7 cases)

                                     Release criteria misapplied
                                              (5 cases)
                    Special circumstances cases without the relevant special
                                 circumstances worksheet page
                                           (3 cases)
                    Interpretation of POCR timeline stops and starts unclear
                                          (3 cases)

                             Flight risk tied to likelihood of removal
                                              (2 cases)

                                     Legal standards misapplied
                                              (2 cases)

                       CDU or OPLA identified serious procedural errors
                                        (2 cases)

           Source: OIG File Review




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                              Page 56
                        Appendix H
                        Procedural Challenges and Best Practices


                        Operational Challenges and Best Practices
Appendix H: Procedural Challenges and Best Practices
                    ICE’s inability to hire staff, attrition, and turnover, coupled with regulatory
                    requirements, inadequate database resources, varying levels of cooperation
                    from countries of origin, and difficult alien case histories, make it difficult to
                    manage the POCR caseload. During our review, we observed practices
                    developed in field offices that could improve the timeliness, efficiency, and
                    quality of the POCR process. Each of the sites visited or interviewed by
                    telephone contributed at least two of the best practices we cite.

                        Division of POCR Cases Among More Staff

                        In 2001, when POCR processing under the Zadvydas decision began, many
                        field offices assigned only one or two deportation officers to the POCR
                        process. Each site now assigns POCR cases to all deportation officers
                        working on detained cases or to a team of deportation officers to ensure case
                        coverage. This expands the field office’s knowledge base, ensures continuity
                        during staff turnover, and eliminates the burden on one officer to conduct
                        timely and thorough reviews.

                        Procedures to Ensure Complete, Timely, and Clear Records

                        All offices we visited have created tracking systems to lessen the chances that
                        cases will be overlooked or reviews delayed due to DACS’ deficiencies. A
                        few field offices had developed sophisticated databases, while others relied on
                        more basic checklists, calendars, and file cover sheets.

                        Several offices had developed checklists for stages in the POCR process,
                        including:

                             •   A timeline for document service and case review deadlines.
                             •   Check sheets to verify completion of steps in the POCR process.
                             •   A cover sheet to verify completion of necessary checks before
                                 removal.
                        Several offices served all required notices for all aliens detained with a final
                        order, eliminating the need to coordinate notification service with monitoring
                        travel document requests.

                        Two sites had a hand-written Record of Action sheet in each file, enabling
                        quick supervisory review of the case status.



          ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                      Page 57
              Appendix H
              Procedural Challenges and Best Practices


              One office had files that were consistently in chronological order with each
              required POCR document tabbed.

              Nongovernmental Organization Coordination for Placement of Mental
              Health Cases

              Three field offices we visited worked closely with local pro bono
              organizations and know-your-rights groups to find placements for aliens who
              could not be removed but who had mental health problems and no community
              ties. This practice enabled the offices to place individuals before they reached
              180 days and the Public Health Service could assist in this process.

              Communication Between Deportation Officers and Aliens

              Regular contact with detainees helps DRO field offices obtain information for
              travel document requests and post-order custody reviews. It may also help
              address some detainees’ misconception that they will eventually be released if
              they conceal, or obstruct procurement of, travel documents. Unless
              deportation officers are stationed at a detention facility, regular
              communication with aliens in the POCR process can be difficult. The
              deportation officers in one field office conducted telephone interviews with
              the POCR aliens to obtain information on the release criteria. The officers
              also counseled the aliens on behavior and compliance. Another facility,
              where the deportation officers were not stationed at a detention facility,
              arranged for the ICE officers who supervise the physical custody of detained
              aliens to work through a questionnaire with the detainees that included all
              information required for the release decision. One of the field offices
              interviewed by telephone reported that it prepares a roster each week with the
              status of each case, and a deportation officer visits each facility to provide
              updates to detainees.

              Communication Between Aliens, Consulates, and Pro Bono Organizations

              The detention standards require that all detainees have free telephone access
              to their consulates and local pro bono organizations. This practice enables
              detainees to actively participate in resolving their cases, whether by securing
              travel documents or obtaining evidence for release or judicial review of their
              immigration status. At only one site we visited were all of the telephones
              programmed as required. One site was in the process of fixing its telephones.
              However, for the sites interviewed by telephone as best practices sites,
              deportation officers reported that they are aware that the existing telephone
              system frequently drops numbers, and consulates change their numbers


ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 58
              Appendix H
              Procedural Challenges and Best Practices


              without notifying ICE. They have addressed the problem by going into the
              aliens’ cells periodically to test the telephones.

              Communication Between Field Offices and Consulates

              The TDU identified personal relationships with consular officers as a key
              factor in obtaining travel documents. Some field offices located in cities with
              consulates reported that they have better results when they arrange regular
              face-to-face meetings with consular officers. However, many DHS field
              offices operate in areas of the United States where there are no consulates
              nearby, and, therefore, must operate primarily by telephone. One of the
              deportation officers we interviewed by telephone, who worked in a field office
              where there were no consulates nearby, reported that when an alien is dropped
              off for a charter flight in a larger city, the deportation officers make
              appointments to visit several consulates to follow up in person on pending
              travel documents.




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 59
                       Appendix I
                       Major Contributors to the Report


                    Major Contributors to the Report
Appendix I: Major Contributors to the Report
                    Marcia Moxey Hodges, Chief Inspector, Department of Homeland Security,
                    Office of Inspections

                       Lorraine Eide, Senior Inspector, Department of Homeland Security, Office of
                       Inspections

                       Melissa Keaster, Inspector, Department of Homeland Security, Office of
                       Inspections

                       Andrew Schmidt, Inspector, Department of Homeland Security, Office of
                       Inspections




         ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                                     Page 60
              Appendix J
              Report Distribution


              Report Distribution
                        Appendix J: Report Distribution
              Department of Homeland Security

              Secretary
              Deputy Secretary
              General Counsel
              Chief of Staff
              Deputy Chief of Staff
              Executive Secretariat
              Assistant Secretary, Policy
              Assistant Secretary, Public Affairs
              Assistant Secretary, Legislative and Intergovernmental Affairs
              Assistant Secretary, Immigration and Customs Enforcement
              Director, Office of Detention and Removal Operations
              Chief Security Officer
              Chief Privacy Officer
              DHS OIG Liaison
              ICE Audit Liaison

              Office of Management and Budget

              Chief, Homeland Security Branch
              DHS Program Examiner

              Congress

              Congressional Oversight and Appropriations Committees, as appropriate




ICE's Compliance with Detention Limits for Aliens with a Final Order of Removal from the United States

                                            Page 61
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
